Audit of USAID/Regional Services
Center/Budapest’s Financial Operations and
Management Controls

Audit Report No. B-194-02-001-F

March 14, 2002




                 Budapest, Hungary
 U.S. Agency for
  INTERNATIONAL
   DEVELOPMENT

RIG /Budapest


March 14, 2002

MEMORANDUM
FOR:               USAID/Regional Services Center/Budapest Director,
                   Hilda Arellano

FROM:              Director of Audit Operations/Budapest,
                   Nathan S. Lokos

SUBJECT:           Audit of USAID/Regional Services Center/Budapest’s
                   Financial Operations and Management Controls (Report
                   No. B-194-02-001-F)


This is our final report on the subject audit. In preparing the report,
we considered your comments on the draft report and included them
in their entirety in Appendix II.

The report contains four recommendations and we consider
management decisions to have been reached on Recommendations
Nos. 1.1, 1.2, 2, 3.1, and 3.2. Furthermore, we consider
Recommendation Nos. 1.1, 2, and 3.1 closed upon issuance of the
report.

We appreciate the cooperation and assistance extended to the auditors
on this assignment.




                                                                 Page 1 of 35
Table of   Summary of Results                                                      3
Contents
           Background                                                              3

           Audit Objective                                                         4

                 Did USAID’s Regional Services Center’s Regional Financial
                 Management Office establish and implement adequate internal
                 controls over its accrued expenditures, Standard Form 1221
                 reconciliations and advances?                                     4

           Audit Findings`                                                         4

                 Controls over Accruals Were Adequate                              4

                 The RFMO Should Perform SF-1221 Reconciliations
                 In a Timely Manner                                                5

                 The RFMO Should Develop a Training Plan                           7

                 The Completeness and Relevance of RSC Financial
                 Mission Orders Should Be Verified                                 8

                 The RFMO Should Strengthen
                 Its Monitoring of Cash Advances                                   9

           Management Comments and Our Evaluation                                 13

           Appendix I - Scope and Methodology                                     14

           Appendix II - Management Comments                                      16

           Appendix III - USAID/RSC Country Programs                              29

           Appendix IV - Entries and Open Reconciling Items                       30

           Appendix V - RFMO Organizational Chart                                 31

           Appendix VI - Examples of Tardy Liquidation Vouchers                   32




                                                                   Page 2 of 35
Summary of
Results      In answering the objective of whether USAID’s Regional Services
             Center’s Regional Financial Management Office
             (USAID/RSC/RFMO) established and implemented adequate internal
             controls over its accrued expenditures, Standard Form 1221
             reconciliations, and advances, we found that USAID/RSC/RFMO had
             adequate controls over its accruals and posted its accrued expenditures
             properly by entering and reversing them out of the Mission Accounting
             and Control System (MACS)1 (see page 4). However, we found that
             the USAID/RSC/RFMO needs to improve its internal controls over its
             Standard Form 1221 reconciliations and advances. Specifically, the
             Mission needs to improve its internal controls over its Standard Form
             1221 (SF-1221) reconciliations, which have not been completed in a
             timely manner (see page 5). Additionally, the Mission should
             strengthen its controls over cash advances to ensure that such advances
             are limited to the recipients’ immediate disbursing needs and ensure
             that the advances are liquidated in a timely manner, as required by
             USAID policy (see page 9).



Background
             Under the Government Management Reform Act of 1994 (GMRA),
             USAID is required to submit audited financial statements to the Office
             of Management and Budget (OMB) and appropriate Congressional
             Committees. USAID management’s ability to develop and maintain
             adequate internal controls, accounting systems and procedures to
             generate reliable financial statements is critical to the success of
             USAID’s annual reporting under GMRA.

             As part of the fiscal year 2000 (FY2000) GMRA audit, the Office of
             Inspector General identified several material systemic deficiencies at
             USAID/Washington and three statistically selected overseas
             accounting stations. We found that USAID/Washington and the
             overseas accounting stations were improperly calculating and reporting
             accrued expenses and related accounts payable. Also, the overseas
             accounting stations were not properly reconciling disbursements and
             collections with the U.S. Disbursing Offices and the U.S. Treasury and
             were not properly reporting outstanding advances at year end. As a
             result, these areas were selected as the primary focus for the fiscal year
             2001 GMRA audit.

             1
               The mission financial and accounting data is accumulated and reported to
             USAID/Washington through the MACS. The MACS is an on-line, interactive, fully
             integrated accounting system within a particular mission.



                                                                               Page 3 of 35
                  One of the USAID overseas locations selected for testing in the fiscal
                  year 2001 GMRA audit was the Regional Financial Management
                  Office (RFMO) of USAID’s Regional Services Center for Europe
                  and Eurasia (RSC). As listed in Appendix III, the RFMO provides
                  financial services for USAID activities throughout the region. Over
                  the past seven years, the RFMO’s portfolio has grown from 8
                  USAID client missions2 with transactions valued at more than $11
                  million in obligations to 21 client missions with transactions valued
                  at more than $402 million in obligations in FY2001.



Audit Objective
                  This audit was a part of the Office of Inspector General’s audit of
                  USAID’s fiscal year 2001 financial statements as required by the
                  Government Management Reform Act (GMRA). The Office of the
                  Regional Inspector General/Budapest performed this audit to answer
                  the following audit objective:

                          Did USAID’s Regional Services Center’s Regional Financial
                          Management Office establish and implement adequate internal
                          controls over its accrued expenditures, Standard Form 1221
                          reconciliations, and advances?

                  Appendix I describes the audit scope and methodology.



Audit Findings    Did USAID’s Regional Services Center’s Regional Financial
                  Management Office establish and implement adequate internal
                  controls over its accrued expenditures, Standard Form 1221
                  reconciliations, and advances?

                  USAID’s Regional Services Center’s Regional Financial
                  Management Office (RFMO) had adequate internal controls over its
                  accruals. However, the office did not have adequate internal controls
                  over its Standard Form 1221 (SF-1221) reconciliations or its cash
                  advances.

                  Controls over Accruals Were Adequate

                  We found that the RFMO had adequate internal controls over its
                  recording and reporting of accrued expenditures. For example:

                  2
                   Some of the client missions are single offices and are not responsible for program
                  activities.



                                                                                          Page 4 of 35
•   The RFMO sent guidance concerning the development of accruals
    and related accrual worksheets to its client missions.

•   RFMO staff adjusted the accruals for any late disbursements that
    would impact the amount to be accrued.

•   The RFMO Controller reviewed and initialed journal vouchers
    used to record accruals.

Moreover, in general, the accrual transactions that we reviewed were
properly entered into the Mission Accounting and Control System
(MACS) and properly reversed for the period audited.

The RFMO Should Perform SF-1221 Reconciliations
In a Timely Manner

USAID overseas missions commit and obligate funds that are
disbursed by the United States Disbursing Offices (USDOs). The
USDOs send a SF-1221 report to the mission listing all of their fund
activity for each appropriation for the month. U.S. Government
statutes3 and USAID guidance4 require that, at the end of each month,
mission controllers’ offices conduct a SF-1221 reconciliation between
the fund activities in their accounting system and that reported by the
USDOs. The SF-1221 reconciliation is used to determine the
disbursement and collection activity for a specific agency location for
a specified period of time and is developed by matching USAID
disbursements with associated USDO transactions (items without
matches are reconciling items). USAID missions report their SF-1221
reconciliation to USAID/Washington via a monthly U-101 report.

We determined that the RFMO has not been able to resolve its
backlog of outstanding SF-1221 reconciliations in a timely manner.
In fact, as of March 2001, the RFMO did not know the details of the
reconciling items—valued at approximately $5.6 million—that



3
  Public Law 31 United States Code 3513 requires the U. S. Treasury Secretary to
prepare reports on the financial operations of the U. S. government. In turn, the
Treasury Department requires that agencies reconcile their accounts on a regular and
recurring basis.
4
 USAID’s Financial Management Bulletin Part II, Number 14B and the Mission
Accounting and Control System (MACS) Users Guide provide guidance for
conducting SF-1221 reconciliations.




                                                                        Page 5 of 35
needed to be researched and resolved.5 Appendix IV contains a
schedule that represents the total number of transactions processed
by USDO Paris and recorded in MACS, including the correcting
actions and journal vouchers from April 1999 through January
2001. Because of this backlog of SF-1221 reconciliations, the
RFMO portion of USAID’s fund balance with Treasury cannot be
accurately determined. In addition, these unreconciled items
complicate the RFMO’s calculation of accrued expenditures and
unliquidated obligation balances, because disbursements made by
USDOs are a factor in both of these calculations.

According to USAID officials, timely SF-1221 reconciliations had
not been performed because of significant staff turnover in the
RFMO and its client missions, the numerous evacuations of USAID
personnel that have occurred in the region and delays in hiring the
staff necessary to handle the RFMO’s workload. In addition,
USAID officials indicated that RFMO accountants had been
required to work on other, higher priority tasks. As a result, those
accountants were unable to complete the SF-1221 reconciliations as
required.

USAID officials were aware of these problems and had taken
previous steps to address both the backlog of SF-1221
reconciliations and the perceived causes of those backlogs. For
example, USAID officials:

    •   Included the backlog of SF-1221 reconciliations as a
        weakness in the Regional Service Center’s (RSC) FY 1999
        and 2000 reporting under the Federal Managers’ Financial
        Integrity Act;6

    •   Implemented a computer-based reconciliation system;

    •   Added a new accounting team of three new accountants;



5
  The RFMO’s backlog of outstanding Standard Form 1221 reconciling items grew
from $2.2 million in 1999 to more than $7 million in 2000. The RFMO estimate of
outstanding reconciliations is a net value and could, in fact, be much more or much
less.
6
  The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that the
head of each executive agency report to the President and the Congress on the
adequacy of their agency’s internal accounting and administrative controls. Under
the FMFIA process, the RSC submits annual reports to USAID’s Bureau for Europe
and Eurasia.




                                                                       Page 6 of 35
    •   Worked with the American Embassy/Budapest to upgrade
        RFMO positions; and

    •   Contracted with a local firm for two temporary analysts to
        work on the backlog of reconciling items as of October
        2001.

While we applaud the steps the RSC has taken in addressing the
causes of its SF-1221 backlog, we believe that it is essential that
the backlog itself be liquidated. Accordingly, we are making the
following recommendation:

        Recommendation No. 1: We recommend that
        USAID’s Regional Services Center/Budapest:

        1.1 Develop an action plan, including
            milestones, for liquidating its backlog of
            Standard Form 1221 reconciliations, and

        1.2 Liquidate its backlog of Standard Form
            1221 reconciliations in accordance with
            the action plan.

The RFMO Should Develop a Training Plan

U.S. Government internal control standards7 note that operational
success is only possible when the right personnel for the job are
employed and are provided with the right training, tools, structure,
incentives and responsibilities.

Unfortunately, due to high staff turnover and increased
workloads, current RFMO staff has not received sufficient
training to assist them in performing their jobs. Without such
training, we believe it is more difficult for RFMO staff to
perform their work in the most efficient and effective manner.

We understand that RFMO officials plan to address training
needs by hiring a U. S. Personal Services Contractor (USPSC) to
conduct “one-on-one” on-the-job training with RFMO staff.8
7
 The Standards for Internal Control in the Federal Government were issued by the
U.S. General Accounting Office in November 1999. These standards provide the
overall framework for establishing and maintaining internal control in the Federal
government.
8
 In December 2000, RSC Management hired a USPSC as a Senior Financial
Adviser to, among other things, assist in administering the RFMO, maintain



                                                                        Page 7 of 35
While we acknowledge the benefits of on-the-job training, we
believe the RFMO can further equip its staff to perform more
efficiently and effectively by using appropriate combinations of
on-the-job and formalized training.

        Recommendation No. 2: We recommend that
        USAID’s Regional Services Center/Budapest
        develop and implement a training plan to
        address the Regional Financial Management’s
        Office staff needs.

The Completeness and Relevance of RSC Financial Mission
Orders Should be Verified

Automated Directives System(ADS)—USAID’s official
guidance, policies and procedures—section 596, requires that
USAID managers ensure, among other things, that management
controls provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.
USAID missions often address this requirement by issuing
mission orders, which document the mission’s guidelines and
procedures related to various USAID functions. Such mission
orders are particularly useful when a mission experiences
significant staff turnover, because they provide incoming staff
with a means for quickly learning the mission’s policies and
procedures.

During our review, we noted that it had been a number of years
since the RSC had issued any financial mission orders. In fact,
despite USAID’s dynamic environment, most of the RSC’s
financial mission orders dated back to 1993. Moreover, while
a January 2001 RSC mission order index listed six financial
management mission orders; no recent mission orders
addressing these areas were available for our review. 9 In the
absence of current and relevant mission orders, RFMO staff
may not know how they are supposed to handle key financial
transactions and events.




accounting and payment systems, and provide guidance on the preparation for our
GMRA audit. This Adviser recommended that RFMO officials hire a USPCS
trainer.
9
 The mission orders identified in the index were: Vouchers, Payment Policy and
Procedures, Advances, Bills for Collection, Funds Control and Cashier Operations.



                                                                       Page 8 of 35
For example, ADS Section E636.5.3b states that, at a
minimum, cash advances to grantees must be reviewed at least
quarterly to ensure that those advances are not in excess of the
grantees’ immediate disbursement needs. However, while the
ADS specifies this minimal requirement, each mission must
determine whether cash advances should be reviewed on a
more frequent basis based on its own unique circumstances and
assessment of risk. In the absence of a mission order codifying
the RFMO’s guidance and procedures for advances, the RFMO
staff’s monitoring and follow-up on advances may not be
commensurate with the risk posed by those advances.

In addition to the above, we also believe that the absence of
formal written guidance—such as mission orders—makes it
more difficult for recently hired RFMO staff members to master
their new responsibilities. Mission orders could facilitate this
learning process. Given the significant recent turnover in RFMO
personnel as well as the dramatic growth in the RFMO’s
workload over the past several years, we believe it would be
prudent for the RSC to review whether its financial mission
orders are complete and whether they reflect current RFMO
policy and procedures.

       Recommendation No. 3: We recommend that
       USAID’s Regional Services Center/Budapest:

       3.1 Review the completeness and relevance of
           its financial mission orders, and

       3.2 Revise current financial mission orders and/or
           issue new financial mission orders, as necessary.

The RFMO Should Strengthen
Its Monitoring of Cash Advances

USAID’s guidance requires that Mission Controllers monitor
cash advances to grantees on an on-going basis. It also requires
that such advances be limited to the grantee’s immediate
disbursing needs and that they be liquidated in a timely manner.
However, the RFMO’s monitoring of cash advances did not
ensure that all cash advances were limited to grantee’s immediate
disbursing needs and that advance liquidation vouchers were
received in a timely manner. We believe that this occurred
because the RFMO was inadequately staffed, which in turn
caused RFMO staff to focus on what they considered to be higher



                                                             Page 9 of 35
priority tasks. Additionally, we believe that the lack of a mission
order detailing the RFMO’s specific guidance and procedures
concerning advances may also have contributed to this situation.
As a result, some grantees maintained excessive advances and/or
did not submit vouchers to liquidate their advances in a timely
manner.

USAID’s ADS Section 636 addresses program funded advances.
This ADS section requires that advances to grantees be restricted
to immediate disbursing needs, which is defined as the cash
required for up to 30 days from the date the grantee receives the
advance until it is expended. Accordingly, the guidance also
indicates that cash advances should not be made for periods
longer than 30 days, unless authorized in writing by USAID’s
Deputy Chief Financial Officer (D/CFO). Moreover, even with
the D/CFO’s authorization, the period covered by the advance
cannot be longer than 90 days, regardless of the circumstances.10

In addition to the above requirements, the ADS requires that
funds in excess of immediate cash needs be refunded to the
Mission unless the excess funds are to be disbursed within 7
days, or the amount is less than $10,000 and will be disbursed
within 30 days. Moreover, USAID’s standard grant provision
concerning advances requires that, at the end of each quarter, the
grantee submits a voucher (marked “Liquidation of Advances”)
to liquidate the advances of the previous quarter.

We reviewed a sample of 15 project advances to 13 grantees
valued at $1.6 million from the RFMO’s Advance and
Liquidation ledgers. We found that the RFMO had not
adequately monitored a number of these advances.
Consequently, two of these grantees (approximately 13%)
received advances in excess of their immediate cash needs.
Additionally, eight (approximately 53 %) of these grantees did
not submit vouchers liquidating their advances in a timely
manner. These conditions are discussed in more detail below.

Excessive Advances Given to Some Grantees – The RFMO
acknowledged that several grantees received cash advances
which exceeded the recipient’s current disbursement needs (30

10
   Standard grant provisions for non-profit organizations specify that USAID may
provide monthly cash advances to grantees. These grantees are permitted to
liquidate those advances on a quarterly basis. Most importantly, the provision also
limits periodic advances to the “minimum amounts needed to meet current
disbursement needs.”



                                                                       Page 10 of 35
days). For example, Mission officials noted that under Grant No.
183-G-00-99-00109, the Foundation for Local Government
Reform had received excess advances. This grantee had
consistently carried over from month-to-month unliquidated
advance balances ranging from approximately $11,000 to
$175,000. Based on information provided by the RFMO, it does
not appear that the unliquidated advance balance at the end of
each month was properly taken into account when approving
subsequent advances under this grant agreement.

Another example involves the Center for Economic
Development (Grant No. 183-G-00-00-00115). In this case,
Mission officials note that the grantee “appears to have received
and held an outstanding advance greater than its immediate
disbursement needs.” According to the RFMO, this outstanding
advance balance totaled approximately $58,000 as of December
19, 2001.

Advances Not Liquidated in a Timely Manner – We also noted
several instances where grantees did not liquidate advances in a
timely manner. Based on our review of documentation provided
by RFMO officials, RFMO staff did not take timely action to
obtain these tardy liquidation vouchers.

For example, the RFMO advanced $43,668 to the Foundation for
Development of Democratic Rights for the quarter covering July-
September 2000. The end of the quarterly period was September
30, 2000. Reasonably, we would have expected the RFMO to
receive the grantee’s liquidating voucher by October 31, 2000
(30 days from the end of the quarter). However, the liquidating
voucher was not actually received until March 5, 2001—124
days late. If the requisite monitoring had been done, we would
have expected the RFMO to initiate some type of action to
request the tardy liquidation voucher in November 2000, after
having not received the voucher in October 2000. However, our
review of documentation provided by the RFMO revealed no
evidence that the office took any action prior to receiving the
liquidating voucher on March 5, 2001.

In a second example, the RFMO advanced $124,607 to the
Gdansk Institute for Market Economy for the June-July 2000
period. The end of the quarter was the following month, August
2000. Reasonably, the grantee should have submitted the
liquidating voucher by the end of September 2000 (30 days from
the end of the quarter). However, the liquidating voucher was



                                                              Page 11 of 35
not actually received until January 30, 2001—121 days late. If
the requisite monitoring had been done, we would have expected
the RFMO to initiate some type of action to request the tardy
liquidation voucher in October 2000, after having not received
the voucher in September 2000. However, our review of
documentation provided by the RFMO revealed no evidence that
the office took any action prior to receiving the liquidating
voucher on January 30, 2001.

In addition to the above mentioned sample of cash advances, we
reviewed the RFMO’s Advance Aging Report of outstanding
advances for project and operating expense advances as of June
26, 2001. We determined that, of the total outstanding advances
of $5.1 million, approximately $464,000, or 9.2 per cent of the
total, was outstanding for more than 360 days. As previously
stated, USAID guidance requires that program advances not be
longer than 90 days and that they be liquidated on at least a
quarterly basis. We believe this large long-outstanding
unliquidated advance balance is a further indication that the
RFMO should strengthen its monitoring of cash advances.
Accordingly, we are making the following recommendation.

       Recommendation No. 4: We recommend that
       USAID’s Regional Services Center/Budapest:

       4.1 Review its portfolio of advances, identify
           unliquidated advances not in compliance
           with Automated Directives System section
           636 requirements and grant/cooperative
           agreement provisions, and resolve those
           outstanding advances.

       4.2 Issue a mission order formalizing the
           Regional Services Center’s guidance and
           procedures regarding cash advances.




                                                            Page 12 of 35
Management
Comments and
Our Evaluation   In general, the Regional Services Center (RSC) agreed with the
                 findings, conclusions, and recommendations in our draft report.
                 For some areas, the RSC provided additional information
                 and/or suggestions. In instances where we agreed with the
                 RSC response, we modified our report appropriately.
                 However, we disagreed with the mission regarding cash
                 advances.     In its written comments, RSC management
                 contended that the Regional Financial Management Office
                 (RMFO) closely monitors the issuance of advances and their
                 unliquidated balances. However, as previously mentioned in
                 our report, the incidents we noted of excessive advances, the
                 lack of follow up on tardy liquidation vouchers, and the
                 presence of long-outstanding unliquidated advance balances on
                 the RFMO’s Advance Aging report lead us to a different
                 conclusion—that the Mission needs to strengthen its
                 monitoring of advances. Some detailed examples illustrating
                 the Mission’s lack of timely follow up on advance liquidation
                 vouchers are presented in Appendix VI.




                                                                           Page 13 of 35
                                                                          Appendix I




Scope and
Methodology
              Scope

              The Office of the Regional Inspector General/Budapest
              conducted this audit, in accordance with generally accepted
              government auditing standards, to determine if the Regional
              Services Center’s (RSC) Regional Financial Management Office
              (RFMO) had established and implemented adequate internal
              controls over its SF-1221 reconciliations, advances, and, accrued
              expenditures. The audit was a part of the Office of Inspector
              General’s audit of USAID’s Internal Controls Over the RSC’s
              Accounting and Control System for Fiscal Year 2001, as required
              by the Government Management Reform Act. Audit coverage
              focused on the outstanding 1221 reconciliations valued at
              approximately $5.6 million, outstanding advances valued at $3.6
              million, and accrued expenditures valued at $35.7 million, as of
              March 31, 2001. Audit fieldwork was conducted at the RSC in
              Budapest, Hungary from June 11 through July 31, 2001 with
              updates through December 2001. Specifically, we assessed the
              RFMO’s controls regarding the management of human capital,
              accurate and timely recording of transactions and events, and
              appropriate documentation of transactions.

              Methodology

              We developed the audit objective to determine whether the
              Regional Financial Management Office (RFMO) established
              and implemented adequate internal controls over 1) its
              Standard Form 1221 reconciliations, 2) advances, and 3)
              accrued expenditures.

              In answering the audit objective regarding SF-1221
              reconciliations, we reviewed the RFMO’s monthly cumulative
              reconciliation balances for appropriations chargeable to the
              client missions from January – March 2001, as well as
              documentation regarding total mission disbursements and the
              disbursing offices’ net disbursements for fiscal year 2001.
              Additionally, we interviewed knowledgeable RFMO staff
              about historical events transpiring from FY 2000 and FY 2001.

              For the advances, we interviewed RFMO accounting personnel
              to identify the procedures and controls used in approving and
              liquidating project and operating expense advances. Using a



                                                                          Page 14 of 35
                                                           Appendix I


list of recipients with outstanding advances as of March 31,
2001, we selected a judgmental sample of outstanding
advances to determine whether the RFMO was ensuring
prompt liquidation of advances and controlling the amounts
advanced.

In assessing the accrual process, we reviewed accrual data to
verify whether the information had been entered into the
mission accounting system correctly. We also reviewed office
procedures and documentation to determine if staff adhered to
pertinent guidance.




                                                           Page 15 of 35
                                                                               Appendix II




Management
Comments


MEMORANDUM

To:             Director of Audit Operations/Budapest
                Nathan S. Lokos

From:           Director of USAID Regional Services Center/Budapest
                Hilda Arellano

Date:           December 19, 2001

Subject:        Audit of USAID/Regional Services Center/Budapest’s Financial
                Operations and Management Controls

Thank you for your memorandum dated November 28, 2001, and the attached draft report on
the subject audit. We appreciate the review by your office of our financial operations and
management controls. We welcome this opportunity to provide comments on the audit
report.

Of the nine separate recommendations contained in the report, I concur with five and
disagree with four. Of the five with which I concur, I request that three be closed on
issuance, two reflect management decisions, and four be dropped from the final report. Each
recommendation is addressed in this memo.

        Recommendation No. 1: We recommend that USAID’s Regional Services
        Center/Budapest:
        1.1 Develop an action plan, including milestones, for liquidating its backlog of
             Standard Form 1221 reconciliations, and
        1.2 Liquidate its backlog of Standard Form 1221 reconciliations in accordance
             with the action plan.

RSC/RFMO has recognized its backlog of SF-1221 reconciliations as a material weakness in
its FMFIA reports for Fiscal Years 1999, 2000, and 2001. Previous efforts to clear this
weakness have failed. For the FMFIA Report of FY 2001, RFMO prepared a more
comprehensive and thorough action plan to address this very difficult weakness. It is in
process of carrying the plan through to completion. We are very optimistic that this
weakness will be cleared on or ahead of the plan’s schedule.

Based on this action plan, I request that Recommendation No. 1.1 be closed upon issuance
of the final audit report. A copy of the plan is attached to this memo. For Recommendation



                                                                                Page 16 of 35
                                                                                   Appendix II


No. 1.2, in that RFMO has made significant progress in carrying out its action plan, I request
that the report reflect that a management decision has been reached and that this
recommendation be closed upon a determination by the Mission’s Management Control
Review Committee (MCRC).

Not clear in the audit is the fact that our problem with reconciling items is primarily with
those transactions that are processed on behalf of our client Missions by the local Embassy
B&F Officer or cashier. In dollar value, more than half of the transactions processed by
RFMO are paid through the Treasury Department’s office in Kansas City. These
transactions, as well as check and electronic funds transactions processed through FSC Paris
by RFMO, do not present a reconciliation problem.

There are several points contained in the audit report that require clarification. The audit
report cites an estimate of 36,000 reconciling items, which is supported by the chart in
Appendix IV. As advised in my memo to you dated November 8, 2001, Appendix IV
presents the total number of transactions processed by both FSC Paris and recorded in MACS
for the FSC Paris DO code (6207), including correcting actions and journal vouchers, for the
period April ’99 through January ’01. In most cases, the columns on the chart are the two
sides of the same transaction. The detail making up these two columns of transactions needs
to be matched and the resulting unmatched items researched and, if determined to be
reconciling items, posted to MACS. Until this matching process is complete, we are not able
to determine the number of reconciling items for periods prior to February 2001. However, to
date, we are finding that most prior period transactions have been correctly posted to MACS.
For the period covered in Appendix IV, FSC Paris processed, for RFMO and its client
missions, a total of 28,999 transactions. Yet the audit report claims that there are 36,000
reconciling items. As a practical matter, I suggest that it is not realistic that there could be
more reconciling items than actual transactions processed during the same time period.

As noted in the audit report, timely SF-1221 reconciliations were not completed for a
combination of reasons. The reasons cited in the report, however, do not include the
underlying situation, unique to RFMO, where a high volume of our client Missions’
Operating Expense and program funded transactions are processed by the local Embassy
cashiers. These transactions, processed outside of MACS, are by definition reconciling items
until identified and posted to MACS. Transactions processed at an Embassy in one month
are captured on the SF-1221 that is received the following month. As the SF-1221 reports
contain a minimum of fiscal data, each transaction requires research and often correcting
journal vouchers. When the data is incorrect, or insufficient, the accountant must
communicate with the Mission, which often requires requests to the local Embassy for the
original documentation. In addition, vouchers that were processed citing incorrect fiscal
data, e.g. the appropriation code, require additional steps to correctly post the transaction. In
both cases, for incorrect or insufficient data, these delays in completing the SF-1221
reconciliation process can result in one month still ‘open’ when the next month’s report is
received. As discussed with the auditors, RFMO is working with its client missions and the
Embassies to improve procedures for local processing of these types of transactions.




                                                                                     Page 17 of 35
                                                                                Appendix II


       Recommendation 2: We recommend that USAID’s Regional Services Center/
       Budapest develop and implement a training plan to address the Regional
       Financial Management’s Office staff needs.

For Recommendation 2, I request that the final audit report reflect that a management
decision has been made with regard to training of RFMO staff, and closed upon submission
and acceptance of the training plan by the Regional Controller. The scope of work in
contract 185-S-00-01-00105 requires the contractor to “conduct a detailed assessment of the
skills and abilities of the RMFO budget and accounting staff and develop individualized
training plans that will ensure the development of the appropriate skills that will allow the
staff to competently carry out their duties. Develop training modules for the staff and/or
arrange for training. Monitor skill development and provide on-the-job training to ensure
skills learned are effectively applied.”

    Recommendation No. 3: We recommend that USAID’s Regional Services Center/
    Budapest:
    3.1 Review the completeness and relevance of its financial mission orders, and
    3.2 Revise current financial mission orders and/or prepare new financial mission
        orders, as necessary.

For Recommendations 3.1 and 3.2, I request that they be closed upon issuance based on the
scope of work under contract 185-S-00-01-00105. Included in the scope are duties and
responsibilities to “evaluate the administrative and operating procedures both within RFMO
and within client missions. Based on the evaluations, make recommendations, as
appropriate, for streamlining processes, ensuring compliance with regulatory and policy
requirements and maintaining adequate internal control. Assist in the implementation of any
recommendations.” With support from the contractor, the Regional Controller will develop
the mission orders and procedures that are deemed necessary to define operations and
procedures not adequately covered in the ADS. Towards this objective, RFMO has currently
in the clearance process a draft Mission Order on Prompt Pay, and draft procedures for Bills
for Collection and SF-1221 reconciliations.

    Recommendation No. 4: We recommend that USAID’s Regional Services Center/
    Budapest:
    4.1 Review the portfolio of advances, identify those advances in excess of the
        recipients’ 30 day cash requirement, and resolve those outstanding balances
        either by collecting the excess amounts or ensuring that those excess advances
        are applied against subsequent cash advances,
    4.2 Determine whether the recipients of Agency cash advances are keeping the
        proceeds in interest bearing accounts and are submitting annual interest
        earned, in excess of $250, to the Agency, as required, and
    4.3 In coordination with its client missions, prepare written policies and
        procedures for project advances to address such items as: identifying the
        documentation required to request and approve an advance, limiting advances
        to current disbursement needs (for a 30-day period), the proper maintenance of



                                                                                 Page 18 of 35
                                                                                    Appendix II


         electronic and manual advance files, and the regular collection of annual
         interest in excess of specified amounts, earned by the recipients of Agency cash
         advances.

In consultation with the RFMO, I respectfully disagree with this section of the audit report. I
find that the RFMO does in fact closely monitor the issuance of advances and their
outstanding balances. Further, RIG in arriving at its conclusion that grantees have funds in
excess of their 30-day cash requirements may have failed to consider that the standard
provisions for grants provide for monthly advances and quarterly liquidations.

For each advance recipient, RFMO creates a spreadsheet to track the issuance of advances
and the receipt of liquidation vouchers. Outstanding balances are monitored, and if requests
exceed liquidations beyond immediate cash disbursement needs, e.g. thirty days, the grant
officer is contacted and requested to validate the request.

The RFMO requested that the nineteen advances sampled be identified for their review. For
the samples provided, RFMO reviewed and determined that there was a close monitoring of
the advance as evidenced by communications between RFMO and the grant officer or
grantee. In many cases, there was no apparent problem with the advance. This analysis
follows:

1. OSCE/SEE University, Grant 165-041
This grantee is a Public International Organization. ADS 636.5.1 states that advance policy
does not apply to Public International Organizations. Even though the policy did not apply,
RFMO review found that the grantee was, in fact, not in violation of the advance policy.

2. International Relief and Development, Grant 169-A-00-00-00109
This grant advance is specifically referred to in the audit report on page 9, the first paragraph.
The $350,000 advance for November activities was processed by RFMO on November 7,
2000. It is true that a subsequent advance was provided to the grantee for the period
December, 2000 to February, 2001, which was processed on February 5, 2001. Not
mentioned in the report is the correspondence that transpired between RFMO and the grant
officer questioning this second request, and the explanation provided. Also not clarified in
the report is that the grantee, per the standard provisions of their agreement, liquidates on a
quarterly basis. The two liquidation vouchers submitted subsequent to the issuance of the
second advance exceeded the total advances outstanding by $12,000 and justified the grant
officer’s approval of the second request. It is the RFMO opinion there was no excess
advance funded.

3. Foundation for Development of Democratic Rights, Grant 169-G-00-00-00106
This recipient submitted seven months liquidations (July 2000 to January 2,001) which were
processed on March 7, 2001 and applied to advances for July to September 2,000, the months
of December 2000 and January 2001. While the grantee should have submitted liquidation
invoices in a timelier manner, our analysis shows the amount of advance still outstanding
after liquidating the seven months was $5,229.00. Included in the file is correspondence



                                                                                     Page 19 of 35
                                                                                Appendix II


from RFMO to the grant officer which includes a refusal to process additional advances until
the outstanding liquidation vouchers are received. Also included is an explanation from the
recipient that funds were provided to a sub-grantee, who liquidated $59,531 of their $67,328
advance in December 2000, and that their sub-grantee’s next advance request would be
reduced by the outstanding balance. It is the opinion of the RFMO that this advance account
was properly handled; that based on grant officer assurances and grantee explanations, the
program was allowed to continue but a firm enough policy resulted in the outstanding
liquidation vouchers being received and processed.

4. Institute for Democracy in Eastern Europe (IDEE), Grant 169-G-00-00-00108
RFMO processed five advances for this grantee. For the month of October, the advance was
processed on October, 26, 2000; for November, on December 8, 2000 and for December the
advance was processed on December 12, 2000. The liquidating voucher, (for the period
August 1 to December 31, 2000) was submitted on March 29 and processed on April 5. The
balance outstanding in the advance account was $79,429. However, the January 2001
advance was not processed until February 28 and the liquidation for three months, January to
March 31, 2001 processed by RFMO on May 10 left a balance of $45,513. The next advance
was processed for the month of May on May 21, 2001. This grantee submits quarterly
vouchers in accordance with the grant agreement. Included in the file is correspondence
between the USAID Controller (Belgrade) and the grantee, providing more evidence of
RFMO monitoring of this advance.

5. Foundation for Local Government Reform, Grant 183-G-00-99-00109

This grantee's advances exceed liquidations. RFMO will contact the grant officer, notifying
that some of the advance needs to be refunded by the grantee or justification as to why the
advance request exceeds expenditures for the same period. The grantee does have a record of
frequent liquidations, and the correspondence in the file indicates that significant amounts
have been provided to sub-grantees. RFMO tries to give some consideration for situations
were there are sub-grantees as this lengthens the liquidation process.

6. Foundation for Local Government Reform, Grant 183-G-00-00-00101

The grantee requests advances on a monthly basis, and liquidates quarterly. The file contains
correspondence between RFMO and the grant officer providing sufficient justification for
processing requests. Advances are liquidated with less than a $10,000 difference. The
balance of advance outstanding was $3,860 for the eleven month period ending February,
2001.

7. NADACIA Ekpolis, Grant 193-0032-A-00-9100

This grantee has, on RFMO records, consistently more advanced than liquidated for the same
period. However, correspondence with the grant officer confirms that Ekpolis is an
indigenous grant-making organization. Their main task is to provide sub-grants to Slovakian
NGOs. The advances to sub-grantees are not liquidated until the project undertaken by the



                                                                                 Page 20 of 35
                                                                                  Appendix II


sub-grantee is complete. Included in the file are financial reports detailing the status of all
sub-advances, indicating a close monitoring of these advances by Ekpolis, the grant officer,
and RFMO. Given the circumstances, RFMO maintains that this account is being closely
monitored, and while Agency records might indicate excess advances are outstanding, the
reality is that many are already expended for program purposes.

8. National Association of Municipalities, Grant 183-G-00-00-00109

The grantee requests advances on a monthly basis, and liquidates on a quarterly basis.
Quarterly liquidations are within $10,000 of advances for the same period. There was one
exception, for the period 3/1/2001 – 5/31/2001, when the unliquidated balance was $36,000.
However, the subsequent liquidation report, for the period 6/1/2001 – 7/31/2001, cleared the
$36,000 as well as the amounts that had been advanced for June and July. RFMO review
indicates that this advance account has been properly managed and monitored.

9. Common Good Projects, Grant 183-G-00-00-00112

The grantee is authorized monthly advance requests and quarterly liquidations. For each
three month period, the grantee submitted a liquidation voucher that cleared the prior three
months to less than $1,000 in each instance. The balance for the nine month period between
the three monthly advances and quarterly liquidations ranges between $359 and $621.
RFMO has determined that this advance account has been properly managed and monitored.

10. Center for Economic Development, Grant 183-G-00-00-00115

The first quarterly liquidation voucher was only $800 less than the sum of the three monthly
advances for the same period. An additional monthly advance and liquidation for January
’01 were equal. However, in March 2001 the grantee received $57,780 for which no
liquidations have been recorded. The current outstanding advance is $58,351.93. RFMO has
recently received a series of liquidating vouchers, however as these are outside the audit end
date of September 30, this account appears to have received and held an outstanding advance
greater than their immediate disbursement needs. RFMO has, and will continue to monitor
this advance account.

11. Foundation for Development of Democratic Rights, Grant 185-0032-A-009012

The grantee has a long history of monthly advance requests and quarterly liquidations where
the quarterly liquidation cleared the prior three months. The only exception noted (October
99 to December 1999), where advances exceed liquidations by $104,000, was resolved in
subsequent months. Over the three year history of this grant, the grantee received
$1,796,868.00 in advances; all except $495.29 was liquidated. The $495.29 was refunded to
USAID on October 24, 2001. RFMO did not find a significant problem in its review of this
advance account and questions as to why it was so considered by the audit report.




                                                                                   Page 21 of 35
                                                                               Appendix II


12. Fundatia Tineri Pentru Romania, Grant 186-0002-G-00-9119

The grantee requests advances on a monthly basis, and liquidates on a quarterly basis. For
any given three monthly advances, the balances after the quarterly liquidation voucher has
been processed range from $267.00 to $17,000. Generally advances are equal to
liquidations. RFMO did not find a problem in its review of this advance account and
questions as to why it was so considered by the audit report.

13. Society for Contraceptives/Sexuality, Grant 186-0002-G-00-9105

The original advance was in excess of the grantee’s actual expenses, and subsequently the
advance amount outstanding averaged about a month ahead of liquidations. The ending
balance on March 2001 was negative $680.00 because they didn't draw any advances for
three months.

14. Gdansk Institute for Market Economy, Grant 181-G-00-98-0321

The two liquidation vouchers exceeded the advances for the same period by $19,940. The
advances and liquidations covered the period June 1, 2000 to August 31, 2000. Again,
RFMO does not find cause for this advance account to be considered by the auditor to of
been a problem.

15. Association of Rhodope Municipalities, Grant 183-G-00-00-00105

The grantee made advance requests monthly and submitted quarterly liquidations per the
terms of their grant agreement. Advances from May 2000 through April, 2001, when
compared to expenses for the same periods, show that small advance balances were
outstanding during the period reviewed. The amounts range from $3,388 to $20,601 (first
quarter of grant activity). The last quarterly voucher (July – September 2001) fully
liquidated all outstanding advances.

16. Partners for Democratic Change, Grant 167-A-00-00-00104

This is a Kosovo grant therefore the liquidation vouchers are not in our system. However,
the MACS advance transaction ledger shows this advance in the amount of $12,725 was
processed on March 13, 2001 and $12,475 was liquidated on May 8. The remaining $250
was liquidated on June 2. There is no apparent issue with this advance that RFMO can
identify.

17. Diana Arnaudova, Travel advance

This advance was processed by the American Embassy Sofia and liquidated through the
American Embassy Sofia. Postings to MACS were made from the SF-1221, thus the actual
advance request and liquidation documents are not immediately available for a closer review.
The advance is, however, fully liquidated.



                                                                                Page 22 of 35
                                                                                   Appendix II



18. Marc Ellingstad, Travel advance.

The advance of $90 was processed on January 11, 2001. Travel was for the period Jan 15 and
16. Employee travel voucher liquidating the advance was dated January 19, 2001. It was
certified on January 30, 2001. The advance was liquidated within three weeks of issuance.
There is no apparent problem with this advance that RFMO can identify.

19. Chance for Stability Foundation, Grant 185-G-00-00-00110

The grantee was slow to submit liquidation vouchers as was noted by the voucher examiner,
the certifying officer and the activity manager. There are e-mails in the file that indicate
follow-up requests were made by RFMO. All advances were, however, fully liquidated by
the end of FY 2001.

The analysis above clearly demonstrates that RFMO does monitor the advances in close
coordination with the activity managers in the client missions. Accordingly, for
Recommendation No. 4.1, I request that this recommendation be dropped from your final
report.

With regard to Recommendation 4.2, I request that this recommendation be dropped from
your final report or revised to reflect actual Agency policy as defined in the ADS and Code
of Federal Regulations. The Mission Controller is not responsible for determining whether
the recipient advances are being kept in interest bearing accounts and submitting annual
interest earned, in excess of $250 to the agency. ADS 636.3 (Responsibilities) .4 (Mission
Controller) states "ensures that annual audit/financial review requirements includes review of
interest/remittance status.” In addition, ADS 635.5 (Depository Interest Remittances) third
paragraph states "while not specifically responsible for tracking any interest earned or its
associated remittance to Treasury, the Bureau for Management, Office of Procurement
(M/OP) or the Mission Controller shall ensure requirements for the recipients annual audit or
financial review includes a determination that interest is or is not being earned on the funds
USAID advanced and if earned, the funds are being properly remitted on an annual basis."

The recent audits of the Center for Social and Economic Research are a case in point that
show that this is an effective control. The audit reports contained recommendations that
interest in excess of $250 should be remitted.

It should further be noted that when interest is earned in excess of $250, that it is remitted to
the Department of Health and Human Services, and not directly to the Agency1, as indicated
in the audit report.

Recommendation No. 4.3 should be dropped from the final report, as this recommendation
is covered under Recommendation No. 3.

_________________________
1
    See 22 CFR 226.22 Payment



                                                                                     Page 23 of 35
                                                                                 Appendix II


       Recommendation No. 5: We recommend that USAID’s Regional Services
       Center/ Budapest prepare written policies and procedures requiring the
       verification of the reasonableness and validity of a sample of accrued
       expenditures and the documentation of that review.

I respectfully disagree with this section of the audit report. The RFMO is in compliance with
the Agency policies as defined in ADS 631 – Accrued Expenditures. Per ADS 631.2, c, the
Mission Controller responsibilities for accrued expenditures are as follows:
  •     “Provides information and assistance to Cognizant Technical Officers (CTOs) or
        appropriate Obligating Official for developing accruals and maintains an overall
        system that produces accruals and accrued expenditures.
  •     Inputs that data received from CTOs or Obligating Officials into the financial system.
  •     Establishes a materiality threshold below the standard $25,000 threshold for
        developing accruals if warranted by local conditions and resources.
  •     Provides information to the Office of Financial Management (M/FM) to adjust
        accruals for advance funded obligations.”

In addition, per ADS 631.2, e, the responsibilities of the Cognizant Technical Officer (CTO)
include:
  •     “In field missions, develops accruals using worksheets and guidance of the Mission
        Controller.”

As noted in the audit report, it was determined “accrual amounts were properly entered into
the Mission Accounting and Control System (MACS) in March 2001 and properly reversed
in April 2001.” The report does not question the validity of the accrued amounts, and offers
no evidence of a problem. As the ADS clearly places responsibility for the validity of
accruals on the CTOs, activity managers or others who are knowledgeable of the activities, I
request that Recommendation No. 5 be dropped from the final audit report.




                                                                                  Page 24 of 35
                                                                                Appendix II


MEMORANDUM

To:           Director of Audit Operations/Budapest
              Nathan S. Lokos

From:         Regional Controller, Regional Services Center/Budapest
              E. Cecile Adams

Date:         December 21, 2001

Subject:      Lokos/Arellano Memorandum of December 19, 2001
              Audit of USAID/Regional Services Center/Budapest’s Financial
              Operations and Management Controls

In our haste to deliver the subject Memorandum to you before people left for Christmas
holidays out of country, we failed to include the attachment referred to in the discussion of
Recommendation No. 1.1 in the Memorandum. In the narrative in the Memorandum we
asked that the Recommendation be closed based upon the action plan in the FMFIA Report
of FY 2001. The Report on a Material Weakness for Period Ending September 30, 2001
(which contains the action plan) is attached to this Memorandum and we ask that you include
it in your review of our December 19, 2001 response to your audit.

Att:a/s




                                                                                 Page 25 of 35
                                                                                  Appendix II


                    REPORT ON A MATERIAL WEAKNESS
                           For Period Ending September 30, 2001

Mission/Bureau/Office: RSC/RFMO Budapest

PART 1: Brief description of the material weakness and its impact
There is a long-standing requirement to reconcile an Agency’s disbursement data for any
given month to that of the Disbursing Office that actually processes the payments. These
reconciliations demonstrate that the disbursement data contained in records are accurate and
complete. Missions are required to maintain detailed records showing the details of open
reconciling items.

RSC/RFMO Budapest historically reconciled its SF-1221 from FSC Paris on the “net
difference” basis, not at the detailed level as required by Agency policy. Without a detailed
tracking of reconciled and unreconciled transactions, RSC/RFMO cannot be assured that its
records are accurate and complete. In particular, for payments processed by local Embassies
for client Mission transactions, RSC/RFMO has a high degree of risk that payments
processed against USAID accounts are not posted to the official accounting records.

PART 2: Nature of the material weakness

Check all criteria applicable to the material weakness:

A      ___     Ability to achieve objectives is significantly impaired
B.     ___     Resources are not used consistent with Agency mission
C.     X       Statutory or regulatory requirements are violated
D.     ___     Programs or resources significantly lack safeguards against waste, loss, and
               mismanagement
E.      X      Ability to obtain, maintain, report and use reliable and timely information for
               decision making is impaired
F.     ___     Improper ethical conduct or a conflict of interest is permitted


PART 3

A. Source of discovery of material weakness:

1.     X       Management review          2. ___ OIG audit
3.     ___     GAO review                 4. ___ Program evaluation
5.     ___     Other(specify):_________________

B. Year identified


Fiscal Year 1999


                                                                                   Page 26 of 35
                                                                                   Appendix II




PART 4

A. If the weakness has not been corrected, complete all items below; if it has been corrected,
   indicate the date and answer only item E in PART 4, and skip PART 5 and PART 6.

The weakness has not yet been corrected.

B. Target date for correction:
August 31, 2002

C. Targeted correction date in last year's report:
August 31, 2001

D. Reason for changed date:
The initial understanding of the problem grossly underestimated the required time for
correction. Due to the volume of transactions, RSC/RFMO determined that a separate
application, “System Reconciliation,” based in Microsoft Access, would be required to do a
comprehensive, detail based, reconciliation. This system is being used to first identify at the
transaction level of detail the reconciling items that have in fact been posted to MACS.
Based on the results of this exercise, the unreconciled, open items will be identified and
researched to properly post to the accounting system.

E. Completed actions/events:
The TDY assistance, as reported in the FY 2000 FMFIA report, failed to adequately address
the problem. A second review, performed by Jim Stanford and completed in February 2001,
provided more complete guidance. Based on Mr. Stanford’s recommendation, a broader
based approach is being used that, while taking longer, will provide a more comprehensive
solution.

To date, the following actions have been completed:
1. Programmed the “System Reconciliation” system in M/S Access. This system accepts
   FSC Paris 1221 data as well as loads from an IQ generated Excel spreadsheet of MACS
   data. This system will facilitate RFMO reconciliation of the SF-1221.
2. Manually loaded SF-1221 detail into the system for the months starting April ’99 through
   present.
3. Extracted MACS data for the corresponding periods and loaded to the system.
4. Automated the SF-1221 load process for current activity.
5. Prepared a scope of work to obtain outside assistance to perform the reconciliations of the
   loaded data, as well as to address periods pre-dating April ’99.
6. Contracted with a local temporary worker service, Riss & Partners, to provide staff to
   perform the matching activity in the “System Reconciliation” system.
7. The “System Reconciliation” system completed an automated match of over 20,000 of
   58,000 transactions.



                                                                                    Page 27 of 35
                                                                                   Appendix II


8. Riss & Partners have cleared approximately 15,000 of the remaining 38,000 transactions.
   Completion of this exercise is ahead of schedule.

F. Planned actions/events, with dates:
1. Complete the reconciliation of the data already loaded into the system. Complete by
   month end March 2002.
2. Based on the results of step 2, above, post to MACS any unmatched reconciling items.
   Complete by month end April 2002.
3. Retrieve the hard copy FSC Paris reports from the warehouse for periods predating April
   ’99. Complete during April 2002.
4. Reassess situation upon review of available hard copy records retrieved from warehouse
   for feasibility of continuing the manual load of FSC Paris data to the reconciliation
   system.
5. Based on above, continue the process of researching and posting any unmatched
   transactions until exhausted, and request from M/RM a write off of remaining items.


PART 5: Validation to be used
In all cases, there is a comprehensive audit trail of all matched transactions being removed
from further action. For unmatched transactions, adequate supporting documentation will be
researched and included with journal vouchers prior to posting to MACS. RFMO will
maintain the “System Reconciliation” tracking system until such time as the FSC Paris data
can be uploaded into MACS, and use the system to monitor if disbursements are being
reconciled on a monthly and cumulative basis.


PART 6: Remarks (include in this section whether or not the weakness is correctable within
the scope of the mission/bureau/office's authority or resources, with ample explanation if it is
not):

RSC/RFMO Budapest will work the reconciliation until all possibility of resolution is
exhausted. At that point, a request to authorize a write off of remaining, unreconciled items
will be presented to M/FM.

This weakness can be corrected provided adequate resources are provided for outside
resources and RFMO remains dedicated to finding a final resolution to the problem.


PART 7: Mission/Bureau/Office Director (printed name): Hilda Arellano

Signature:                                                               Date




                                                                                    Page 28 of 35
                                                                    Appendix III




               United States Agency for International Development
                      Regional Services Center for Europe
                          and Eurasia’s Client Missions

                                  Germany*
                                    Belgium
                                  Switzerland
                                    Croatia
                                    Latvia
                                   Lithuania
                                  Macedonia
                                    Kosovo
                              Bosnia-Herzegovina
                                    Serbia
                                  Montenegro
                                    Poland
                                    Albania
                                   Bulgaria
                                   Romania
                                Czech Republic
                                   Slovakia
                                    Cyprus
                                    Turkey
                       Hungary/Regional Services Center
                      Regional Inspector General/Budapest



*The Regional Financial Management Office (RFMO) is currently obligating and
disbursing funds for 20 client missions. In FY2001, RFMO has not made any
disbursements or obligations on behalf of the program in Germany.




                                                                     Page 29 of 35
                                                                             Appendix IV




                       Entries and Open Reconciling Items



The table entitled “Entries and Open Reconciling Items” indicates that USAID/Regional
Services Center/Regional Financial Management Office (RSC/RFMO) processed about 54
thousand transactions and recorded them in the Mission Accounting and Control System
(MACS). The 54 thousand transactions include correcting actions and journal vouchers for
22 months from April 1999 through January 2001. Summarized monthly, beginning in April
1999, the chart also shows the numbers of disbursing office entries and the number of RFMO
entries. Of these entries, the chart shows that about 36 thousand open reconciling items
existed as of June 8, 2001. This data is presented by USAID mission or country, agency
location code, number of months with reconciling items, and the number of actual
reconciling items which agrees with the monthly reconciling item total.




                                                                               Page 30 of 35
                                                                                                          Appendix V


                          RFMO Organizational Chart RFMO Organizational as of March 31, 2001




The RFMO organizational chart indicates that the office has 30 positions within the office. These include the Regional Controller,
Deputy Controller, Budget and Accounting Officer, Assistant Budget and Accounting Officer, Chief Accountant, and two Financial
Analysts. In addition, the office has positions for a trainer, an administrative assistant, three accountants, eight accounting
technicians, a payroll specialist and pay clerk, one Senior Voucher Examiner and seven voucher examiners.




                                                                                                                      Page 31 of 35
                                                                                     Appendix VI


             EXAMPLES OF TARDY ADVANCE LIQUIDATION VOUCHERS


Grant No. 169-A-00-00-00109

In its comments, Regional Services Center’s (RSC) management indicated that on November 7, 2000,
the Regional Financial Management Office (RFMO) had processed a $350,000 advance voucher for
the International Relief and Development (IRD) grant covering November 2000 activities. As
support for its monitoring of IRD advances, the RFMO also indicated that it only issued a
subsequent advance on February 5, 2001—covering December 2000 to February 2001 activities—
after questioning the grant officer about the second advance request. However, what the RSC
comments do not reflect is that timely action to secure the liquidation of the original advance was
not taken, as indicated below:

Amount Advanced:                    $350,000

Advance Period:                     November 2000

End of Quarterly Period:            January 31, 2001

Liquidating Voucher Due:            By February 28, 2001

Date RFMO Received
the Liquidating Voucher:            April 10, 2001

Tardiness of Liquidation Voucher:   40 days

Given that the liquidating voucher would reasonably be expected to be received in the RFMO by
February 28, 2001, had RFMO staff been monitoring advance liquidations in a timely manner, we
would have expected to see RFMO action in March 2001 to secure the tardy liquidating voucher.
However, our review of the documentation provided by the RFMO revealed no evidence of RFMO
action prior to the April 10, 2001 receipt of the liquidation voucher.

Grant No. 169-G-00-00-00106

In another example, the RSC acknowledged that although the Foundation for Development of
Democratic Rights (FDDR) submitted a liquidation voucher covering seven months at once, the
grantee should have submitted its liquidation vouchers in a timelier manner. We concur as indicated
in the following analysis:

Amount Advanced:                    $43,668

Advance Period:                     July 2000 – September 2000

End of Quarterly Period:            September 30, 2000


                                                                                        Page 32 of 35
                                                                                     Appendix VI


Liquidating Voucher Due:            By October 31, 2000

Date RFMO Received
the Liquidating Voucher:            March 5, 2001

Tardiness of Liquidation Voucher:   124 days


Given that the liquidating voucher would reasonably be expected in the RFMO by October 31, 2000,
had RFMO staff been monitoring advance liquidations in a timely manner, we would have expected
to see RFMO action in November 2000 to secure the tardy liquidating voucher. However, our
review of the documentation provided by the RFMO revealed no evidence of RFMO action prior to
March 5, 2001 to obtain the tardy voucher.

As mentioned above, the RFMO acknowledged in its comments that the grantee should have
submitted liquidation invoices in a timelier manner. However, those comments also state that the
RFMO believes this advance account was properly handled, based—it seems to us—on the fact that
RFMO staff notified the grant officer that no more advance requests would be processed until
outstanding liquidation vouchers were received. However, what the RFMO does not highlight is that
this notice was not provided to the grant officer until March 5, 2001, which was 124 days after the
liquidation voucher reasonably should have been received. We believe that timely monitoring would
have resulted in the RFMO taking action much sooner.

Grant No. 169-G-00-00-00108

The RSC stated that its advance file for the Institute for Democracy in Eastern Europe (IDEE)
contained evidence of RFMO monitoring. RSC comments also noted that IDEE had submitted a
liquidating advance voucher on March 29, 2001 for advances covering the period from August 1 to
December 31, 2000. Moreover, the RSC mentions that there was a $79,429 outstanding balance
after the liquidating voucher was processed. However, what the RSC does not state is that the
liquidating voucher was late, as demonstrated by the following:

Amount Advanced:                    $283,544

Advance Period:                     October 2000 –December 2000

End of Quarterly Period:            December 31, 2001

Liquidating Voucher Due:            By January 31, 2001

Date RFMO Received
the Liquidating Voucher:            March 29, 2001

Tardiness of Liquidation Voucher:   56 days



                                                                                       Page 33 of 35
                                                                                     Appendix VI



Given that the liquidating voucher would reasonably be expected in the RFMO by January 31, 2001,
had RFMO staff been monitoring advance liquidations in a timely manner, we would have expected
to see RFMO action in February 2001 to secure the tardy liquidating voucher. However, our review
of the documentation provided by the RFMO revealed no evidence of RFMO action prior to the
March 29, 2001 receipt of the liquidation voucher.

Grant No. 186-0002-G-00-9105

The RSC acknowledged that the original advance to the Society for Contraceptives/Sexuality was
in excess of the grantee’s actual expenses; subsequently, the advance amount outstanding averaged
about a month ahead of the liquidations. The ending balance on March 2001 was negative $680
because they did not draw any advances for three months. However, this comment fails to address
the issue of the RFMO’s monitoring to ensure the timely submission of advance liquidations. We
believe the timeliness of the grantee’s submission of liquidation vouchers should have been more
closely monitored, as indicated below:

Amount Advanced:                    $51,730

Advance Period:                     October 2000 –December 2000

End of Quarterly Period:            December 31, 2001

Liquidating Voucher Due:            By January 31, 2001

Date RFMO Received
the Liquidating Voucher:            April 25, 2001

Tardiness of Liquidation Voucher:   83 days


Given that the liquidating voucher would reasonably be expected in the RFMO by January 31, 2001,
had RFMO staff been monitoring advance liquidations in a timely manner, we would have expected
to see RFMO action in February 2001 to secure the tardy liquidating voucher. However, our review
of the documentation provided by the RFMO revealed no evidence of RFMO action prior to the
April 25, 2001 receipt of the liquidation voucher.

Grant No. 181-G-00-98-0321

Concerning the Gdansk Institute for Market Economy, the RSC stated that it did “not find cause
for this advance account to be considered….. a problem,” because the two liquidating vouchers
exceeded the advances for the same period by $19,940. Once again, we believe that the RSC has not
properly considered the issue of monitoring for the timely submission of liquidation vouchers, as
highlighted below:



                                                                                       Page 34 of 35
                                                                                 Appendix VI


Amount Advanced:                    $124,607

Advance Period:                     June 2000 - July 2000

End of Quarterly Period:            August 31, 2000

Liquidating Voucher Due:            By September 30, 2000

Date RFMO Received
the Liquidating Voucher:            January 30, 2001

Tardiness of Liquidation Voucher:   121 days


Given that the liquidating voucher would reasonably be expected in the RFMO by September 30,
2000, had RFMO staff been monitoring advance liquidations in a timely manner, we would have
expected to see RFMO action in October 2000 to secure the tardy liquidating voucher. However,
our review of the documentation provided by the RFMO revealed no evidence of RFMO action prior
to the January 30, 2001 receipt of the liquidation voucher.




                                                                                   Page 35 of 35
